                                    Table of Contents

                                                           Page

I.      INTRODUCTION                                        2


II.     AUDITS                                              6


III.    INVESTIGATIONS                                      15


IV.     LEGISLATION                                         19


V.      TECHNICAL ADVICE AND ASSISTANCE                      20


VI.     SPECIFIC REPORTING REQUIREMENTS OF SECTION 5(a)
        OF THE INSPECTOR GENERAL ACT                         23


ATTACHMENTS


A.      TABLE I: OIG AUDIT REPORTS WITH QUESTIONED COST


B.      TABLE II: OIG AUDIT REPORTS WITH RECOMMENDATIONS
        THAT FUNDS BE PUT TO BETTER USE




Semiannual Report to the Congress                               Page 1
                                      Introduction
   The Federal Communications Commission (FCC) is an independent regulatory agency
   exercising authority delegated to it by Congress under the Communications Act of 1934 as
   amended by the Telecommunications Act of 1996. The FCC is charged with regulating
   interstate and international communications by radio, television, wire, satellite and cable.
   The FCC's jurisdiction covers the fifty states, the District of Columbia, and U.S.
   possessions. The mandate of the FCC under the Communications Act is to make available
   to all people of the United States a rapid, efficient, nationwide, and worldwide wire and
   radio communication service. The FCC performs four major functions to fulfill this
   charge:

        •    spectrum allocation;
        •    creating rules to promote fair competition and protect consumers where required by
             market conditions;
        •    authorization of service; and
        •    enforcement.

    The Chairman and four Commissioners are appointed by the President and confirmed by
    the Senate. William E. Kennard was confirmed as Chairman on October 29, 1997.
    Harold W. Furchtgott-Roth, Michael Powell, Gloria Tristani and Susan P. Ness serve as
    Commissioners. The majority of FCC employees are located in Washington, DC. FCC
    field offices and resident agents are located throughout the United States. FCC
    headquarters staff are now housed in entirety in the Portals II building located at 445
    12th Street, SW, Washington D.C. 20554. Office of Inspector General (OIG) personnel
    continue to work with the FCC Security Officer to evaluate overall building security and
    develop recommendations as appropriate to best ensure the safety and integrity of FCC
    staff and operational systems.

    The OIG has dedicated itself to assisting the Commission as it continues to improve its
    efficiency and effectiveness. The Inspector General (IG), H. Walker Feaster III, reports
    directly to the Chairman. The OIG is now located in the West wing of the Portals II in
    the FCC headquarters building at 445 12th Street, SW, Washington, D.C. 20554. With
    the departure of Paul Brachfeld to the National Archives and Records Administration as
    Inspector General, Thomas D. Bennett was appointed as the Assistant Inspector General
    for Audits (AIGA). Charles J. Willoughby serves as the Counsel and Assistant Inspector
    General for Investigations (AIGI).

    This report includes the major accomplishments and general activities of the OIG during
    the period October 1, 1999, through March 31, 2000, in accordance with Section 5 of the
    Inspector General Act of 1978, as amended 5 U.S.C. App. 3, 5.


Office of Inspector General                                                          Page 2
                                    Highlighted OIG Activity

Year 2000

As part of our program of monitoring and supporting Commission efforts to address the Year
2000 problem, the OIG performed a series of reviews to determine Commission readiness. For
example, we performed a special review of Business Continuity & Contingency Planning
(BCCP). The objective of this review was to evaluate the status of continuity planning. As a
result of this review, we reported that the Commission did not have a sufficiently detailed and
tested BCCP in place to prepare for an outage of one or more mission critical systems (with one
exception). We recommended that the Commission work aggressively to institute and test
BCCP's for all mission critical systems.

In addition to reviewing BCCP activities, we performed a special review to assess the feasibility
of the Commission’s plan to ensure the continuity and operation of core business processes
during the midnight transition from December 31, 1999 continuing through the first day of
business January 3, 2000 (i.e., the “Day One Plan”). As a result of this review, we reported that
the Day One Plan needs to accurately reflect the current status of Y2K readiness and that the
plan did not adequately address Day One rehearsal and reporting activities. The Commission
successfully completed the transition to Year 2000 without any major problems.

Spectrum Auctions

As part of the Omnibus Budget Reconciliation Act of 1993, the Federal Communications
Commission (FCC) was authorized by Congress to auction electromagnetic spectrum. Since
the inception of the “auctions program”, the OIG has performed numerous reviews of
various aspects of the program, ranging from application processing and bid management
through detailed technical reviews of Information Technology (IT) management. During this
semiannual reporting period, we participated in a multi-agency OIG review entitled
“PCIE/ECIE Review of Non-Tax Delinquent Debt” as part of our ongoing review of this
critical program. The objective of this review was to assess the collectibility of delinquent
debts that have arisen out of the spectrum auctioning process and evaluating the portfolio
management activities of the FCC to ensure that these practices minimize losses to the
Government. As a result of this review, we reported that the FCC is experiencing significant
collection issues with its Spectrum Auction installment loan portfolio. Based on discussions
with FCC management and other information obtained, the high level of FCC’s delinquent
debt is due to a number of contributing factors including, but not limited to, balancing
program social goals with the need for front-end loan underwriting, changes in market
conditions, and inability of licensees to raise additional capital. The CFO has reported
implementation of three of the seventeen accepted recommendations thus far and partial
implementation of three others.



Semiannual Report to the Congress                                                   Page 3
In addition to our review of Non-Tax Delinquent Debt, we performed a special review of IT
security for the critical Commission sub-network supporting auction operations. This review
was initiated in response to a referral from the Commission’s Computer Security Officer.
Based upon initial reports of potential system compromise, the OIG established a task order
under our contract with a computer security firm and created a review team comprised of
representatives from the contractor and OIG. During the review, we determined that the
system had not been compromised and that the incident actually resulted from a feature of
the database management system. However, as part of the review process we examined
aspects of security and technology management and identified areas where improvements
could be made..

Financial Management

During the semiannual reporting period, the OIG, with the support of an independent CPA
firm, substantially completed audit work relating to the FY 1999 audit of FCC’s financial
statement. Draft versions of the independent auditor’s report and related reports on internal
control and compliance were submitted for agency management’s review and outstanding
issue resolution. Additionally, FCC management is resolving issues precluding general
release of its FY 1999 financial statement.

Field Inspection Program

The OIG conducts inspections of Commission field offices as part of the Field Inspection
Program (FIP). We conduct field inspections in order to independently assess and report
upon the effectiveness and efficiency of field operations. The FIP also serves as a means to
evaluate and test internal controls, address employee concerns, identify best practices and,
conversely, impediments to operations. During the semiannual reporting period, we
prepared a report summarizing the results of field inspection visits during FY 1999. A
recurrent concern raised by the field employees during FY 1999 field office visits was over
personal safety when responding to interference complaints or unauthorized transmissions,
particularly in areas with significant “local militia” activities. On January 27, the Chief of
the Enforcement Bureau reminded all of its employees to follow all existing Field safety
policies while a study was conducted to see what, if any, additional steps should be taken to
maximize employee safety.

For the current fiscal year, we are assessing the FIP to determine whether the program should
be modified in its scope and conduct. The review procedures utilized in the FIP have not been
materially revised since the program’s inception. We are currently identifying areas where the
program can be enhanced and developing a risk-based approach to selecting sites for field
visits. This effort is being performed through internal review of procedures used in prior FIPs,
discussions with Commission representatives to obtain their suggestions, and review of similar
programs in other federal agencies. Due to budget constraints, funding for travel expenses is




Office of Inspector General                                                         Page 4
currently under severe limitations. As a result, we may forgo the conduct of the FIP in fiscal
year 2000, and concentrate our effort on revamping the program for future fiscal years.

Technical Advice and Assistance

OIG continued to broaden its role as a provider of technical advice and assistance to Agency
officials in developing sound management information and financial reporting systems and
in streamlining programs and organizations. In addition to concentrating in the areas of
financial management and procurement, we worked closely with Commission representatives
to develop a Systems Development Life Cycle and participated with the Licensing Work
Group.

OIG continued to further FCC employees’ understanding of the role of the Inspector General
by publishing the first edition of the OIG Policies and Procedures in pamphlet form. Copies
have been widely distributed throughout the Commission.




Semiannual Report to the Congress                                                   Page 5
                                            Audits

OVERVIEW
During the semiannual reporting period, the Office of Inspector General (OIG) issued the
following reports:

    1. October 21, 1999 – Special Review Report of the Commission’s Draft Business
       Continuity and Contingency Plan (BCCP)
    2. November 2, 1999 – Status Report on the Commission’s Year 2000 Activities
    3. December 23, 1999 – Reports Related to Non-Tax Delinquent Debt
    4. March 28, 2000 – Report on Special Review of Auctions Security

OIG reports can generally be obtained via the Internet from the OIG webpage located on the
FCC website [http://www.fcc.gov/oig/]. However, OIG reports containing sensitive or
proprietary information will be restricted to specific individuals and organizations with a
need to know the detailed information.

OIG REPORTS ISSUED
Special Review Report of the Commission’s Draft Business Continuity and Contingency
Plan (BCCP) issued on October 21, 1999, Report No. 00-AUD-01-02

As part of the OIG’s monitoring and support of the FCC’s internal efforts to address the Year
2000 problem, the OIG performed a special review of the critical area of Business Continuity &
Contingency Plans (BCCPs). OIG auditors reported that the Commission had made progress
addressing BCCP issues for the Year 2000 problem. However, the FCC did not have a
sufficiently detailed and tested BCCP in place to prepare for an outage of one or more mission
critical systems (with one exception). As of October 6, 1999, the Commission had not completed
thirteen of its fourteen local BCCPs for its Bureaus and Offices. No documented plan had been
tested.

OIG auditors recommended that the Commission continue to aggressively work to institute and
test BCCP's for all mission critical systems. Further, we recommended that, if timing is
insufficient to fully simulation test all systems, only those systems of the highest criticality and
risk should be simulation tested. All systems should, at a minimum, be subject to an independent
desktop test. We noted that a desktop test is not optimal, as it does not replicate the conditions
related to an actual system outage. Nonetheless, a desktop test provides some measure of


Office of Inspector General                                                           Page 6
familiarity to program operators and users of contingency measures, which may require
implementation.

Status Report on the Commission’s Year 2000 Activities issued on November 2, 1999, Report
No. 00-AUD-01-02

As part of the OIG’s monitoring and support of the FCC’s internal efforts to address the Year
2000 problem, we performed a special review to assess the feasibility of the FCC's Year 2000
Day One Plan. A Day One Plan is a document designed to ensure the continuity and operation
of the FCC’s core business processes during the midnight transition from December 31, 1999 to
January 1, 2000, continuing through the first day of business January 3, 2000. As a result of our
review, we reported that:

    •   The Day One Plan needs to accurately reflect the current status of Y2K readiness
    •   The Plan does not adequately address Day One rehearsal and reporting activities.

The Commission agreed with the findings and stated that these conditions were caused by the
short time frame in which the FCC had to comply with the development of this plan for the Office
of Management and Budget (OMB). The Commission also stated that they would carry out
rehearsal activities in December 1999. The transition to Year 2000 was successfully completed
without any major problems.

Reports on Non-Tax Delinquent Debt issued on December 23, 1999, Report No. 00-AUD-01-
03

We participated in a Government-wide review of Non-Tax Delinquent Debt sponsored by the
President’s Council on Integrity and Efficiency (PCIE). This review was initiated by the PCIE
in response to concerns raised by the Subcommittee on Government Management, Information
and Technology, Committee on Government Oversight and Reform. The primary objectives of
the Government-wide PCIE Review were to (1) determine whether previously reported amounts
of Federal government-wide non-tax delinquent debt accurately represent the universe of non-
tax delinquent debt, and (2) to attempt to assess the collectibility of the delinquent debt. To
accomplish the objectives of the review, we established a task order with the Public Accounting
firm of Ernst & Young LLP (hereinafter referred to as “Ernst & Young”). Ernst & Young used a
performance review guide prepared by the Department of the Treasury to conduct the review. In
addition, at our direction, the scope of the review was limited to FCC’s Spectrum Auction
installment loan program.

Ernst & Young concluded that the FCC is experiencing significant collection issues with its
Spectrum Auction installment loan portfolio. Based on discussions with FCC management and
other information obtained, the high level of FCC’s delinquent debt is due to a number of
contributing factors including, but not limited to, balancing program social goals with the need
for front-end loan underwriting, changes in market conditions, and inability of licensees to raise


Semiannual Report to the Congress                                                    Page 7
additional capital. The FCC’s collection efforts have also been hampered by various internal
and external accounting and organizational problems, such as:

    •   unclear and undefined internal FCC debt collection policies, procedures and
        responsibilities;
    •   non-performance of certain debt collection activities;
    •   insufficient reporting and monitoring of installment loan portfolio performance; and
    •   difficulties and problems with the outsourced Nortridge Loan Tracking System.

To address the current situation, the FCC is taking steps to improve debt management practices,
including defining the bureaus and offices responsible for collection actions as well as
formalizing and documenting debt management policies and procedures. This project resulted
in eighteen formal recommendations of which management concurred with seventeen. We
believe that this commitment on the part of the FCC to address deficiencies in the auction loan
program will result in more accurate computation and reporting of loan balances. This effort,
when taken in conjunction with improved loan servicing and debt collection practices, as
recommended by this office, will result in overall program improvements. These improvement in
internal controls, consistency in processing standards, and compliance with Federal laws and
regulations will result in better protection of the financial assets of the Federal government. The
CFO has reported implementation of three of the seventeen recommendations thus far and
partial implementation of three others.


Fiscal Year 1999 Field Inspection Program – Summary Inspection Report issued on
January 21, 2000, Report No. 00-AUD-01-15

The OIG conducts an annual review known as the Field Inspection Program, or FIP. This
program has been in place since 1996 and has proven to be a useful management tool for the
Commission. The FIP consists of OIG visits to selected field offices to perform a detailed review
of office procedures for controls over program functions and administrative activities.
Additionally, field office employees are given the opportunity to discuss their concerns with OIG
auditors and provide feedback to Commission management.

During the semiannual reporting period, we prepared and issued our Summary Inspection
Report for field inspections conducted at the following offices during FY 1999:

    •   Office of Regional Director, Northeast Region
    •   Chicago Field Office
    •   New York Field Office
    •   Detroit Field Office
    •   Philadelphia Field Office

Our inspection included the evaluation of internal controls over payroll, imprest funds, credit


Office of Inspector General                                                          Page 8
cards and other government assets. Additionally, the status and serviceability of facilities and
equipment were assessed. Our inspection disclosed minor payroll and equipment inventory
discrepancies that were subsequently resolved. The inspection team also sought out best
practices at each office that could be adopted on a Bureau-wide basis, and obtained feedback
from the field employees on topics of concern or interest. A recurrent concern raised by the field
employees was over personal safety when responding to interference complaints or unauthorized
transmissions, particularly in areas with significant “local militia” activities.

We issued a summary report and individual reports on each field visit to Commission
management. The reports did not contain findings and recommendation as in a formal audit
report, but are designed to be observations for management’s information and use. On January
27, the Chief of the Enforcement Bureau reminded all of its employees to follow all existing
Field safety policies while a study was conducted to see what, if any, additional steps should be
taken to maximize employee safety.

Report on Special Review of Auctions Security issued on March 28, 2000, Report No. 00-
AUD-01-21

In response to a referral from the Commission’s Computer Security Officer, the OIG performed
a special review of Information Technology (IT) security on a critical sub-network within
Commission’s IT infrastructure. The affected sub-network is used to support the Commission’s
spectrum auction activities. Based upon the initial reports of potential system compromise, the
OIG responded by establishing a task order under our contract with the computer security firm
of TWM Associates, Inc. (hereinafter referred to as “TWM”) and creating a review team
comprised of representatives from TWM and OIG. The special review was conducted in two
phases. The objective of the initial phase of the review was to investigate the incident and, to the
extent that this information could be developed, determine who was inappropriately using a
privileged account on the sub-network. The objective of the second phase of the review was to
evaluate the security of IT components within the sub-network.

The review team completed the first phase of the review and reported the results of that portion
of the review in an OIG flash report that was issued on October 12, 1999. In that report, the
OIG review team concluded that the specific incident triggering this investigation appears to
have been the result of a database system security feature and not a malicious attack. Working
with IT staff from the Auctions group, the review team was able to re-create the system behavior
displayed during the incident to support the hypothesis that the incident was the result of a
database management system feature. Based on these event re-creations and our examination of
the security boundary surrounding the Auctions technology, the review team concluded that the
incident actually resulted from a feature of the Sybase database management system and that the
security boundary is configured correctly.

During the second phase of the review, the review team identified findings covering two general
areas: 1) the administration of the Auctions systems and 2) the technology assets employed by


Semiannual Report to the Congress                                                      Page 9
the Auctions site. The administrative findings focus on the plans, policies and procedures in
place to ensure that the systems in question are administered in a secure manner. Our review
determined that, in general, the plans, policies and procedures in place over the Auctions system
need improvement. In addition, our review indicates that adherence to the existing plans,
policies and procedures was not sufficient to ensure adequate security for the Auctions system.
The review team made several recommendations to strengthen existing plans, policies, and
procedures. The technology-based findings focus on the secure implementation and deployment
of technology within the system. The review team made several recommendations to strengthen
controls over specific components of the IT infrastructure.

Because of the sensitive nature of the specific conditions identified during this review, specific
information about findings was included in the appendices to the report and distributed only to
those personnel with a need for the information.

ONGOING OIG AUDIT ACTIVITY
Audit of Civil Monetary Penalties

We are in the process of completing an audit of the Commission’s Civil Monetary Penalty
Program. The Communications Act of 1934 authorizes the Federal Communications
Commission (FCC) to use civil monetary penalties as a means of enforcing Commission rules
and regulations. For the period from Fiscal Year (FY) 1995 through the second quarter of FY
1999, Commission records indicate that 375 civil monetary penalty actions with a total dollar
value of $27,342,500 were initiated. For those transactions initiated during this period, the
Commission reports collections totaling $6,364,650 and some level of monetary collection on
213 of the 375 actions. The objective of this review was to determine if the Commission has
established an effective program for managing civil monetary penalties. To conduct this review,
we examined all aspects of the process by which the Commission manages civil monetary
penalty actions. On March 24, 2000, we issued a draft report summarizing the results of our
review. The Commission is expected to provide a response to the draft report by April 28, 2000.


Audit of Computer Controls at the Federal Communication Commission (FCC) National Call
Center (NCC)

We are in the process of completing an audit of computer controls at the Commission’s National
Call Center (NCC). The FCC opened the NCC in 1996 at the Commission’s facility located in
Gettysburg, Pennsylvania. Since its introduction in 1996, the NCC has seen a tremendous
increase in the volume of activity and is heavily reliant upon automated tools to respond to
customer inquiries. The objective of this audit was to examine the automated computer system
and the control environment in which the call center operates to ensure that adequate security
safeguards exist to protect NCC data. To accomplish the objectives of this review, the OIG
established a task order with the computer security firm of TWM Associates, Inc. To conduct the


Office of Inspector General                                                          Page 10
review, TWM used the guidelines contained in the Federal Information System Controls Audit
Manual (FISCAM) developed by the United States General Accounting Office (GAO). On
March 31, 2000, we issued a draft report summarizing the results of our review of the computer
controls at NCC. The Commission is expected to provide a response to the draft report during
the third quarter.

Because of the sensitive nature of the specific conditions identified during this review, specific
information about findings will be included in the appendices to the report and distributed only
to those personnel with a need for the information.

FY 1999 Financial Statement Audit

In coordination with the FCC’s Chief Financial Officer (CFO), the OIG contracted with an
independent public accounting firm (IPA) to assist the OIG in conducting the first-ever financial
statement audit of the FCC. While presently the FCC is not a designated agency per the CFO
Act, amended, the OIG with the concurrence of the Department of the Treasury, Financial
Management Service (FMS), incorporated within the scope of its work that the audit meet the
requirements of a CFO scope audit.

Significant changes to audit scope impacted the OIG and its contractor’s ability to complete the
audit by the March 1, 2000 expected date. FCC management, with the concurrence of the OIG
and its contractor, limited its financial statements prepared per Office of Management and
Budget (OMB) Bulletin No. 97-01, Form and Content of Agency Financial Statements, amended,
to an overview of the reporting entity, a consolidating balance sheet and related notes (financial
statement), and required supplementary information relating to intra-governmental amounts and
the related Federal trading partners for assets and liabilities. Additionally, FCC identified a
significant component of its reporting entity that had a material impact on the financial
statements and greatly expanded the scope of the work performed.

At the close of the current semi-annual period, the OIG and its contractor have substantially
completed key audit tasks including: the development and refinement of the comprehensive audit
plan, an internal control and compliance review, and substantive testing of the FY 1999 line
items. Draft versions of the independent auditor’s report and related reports on internal control
and compliance were submitted for agency management’s review and outstanding issue
resolution. Additionally, FCC management is resolving issues precluding general release of its
FY 1999 financial statement.

The aforementioned reports identify areas where FCC management needs to concentrate to
ensure adherence to Federal accounting standards and processes. To date, draft reports identify
six material weaknesses, seven reportable conditions, and seven instances of noncompliance
with laws and regulations required to be reported under Government Auditing Standards and
OMB Bulletin No. 98-08, Audit Requirements for Federal Financial Statements, amended.




Semiannual Report to the Congress                                                    Page 11
FACTS Agreed-Upon Procedures Attestation

In support of the FY 1999 Audit of the Consolidated Financial Statements of the United States
Government, the Department or the Treasury, Financial Management Service requested “non-
CFO Act” designated agencies to verify Federal Agencies’ Centralized Trial Balance System
(FACTS) data submissions. As part of the verification process, the OIG and its contractor
performed procedures detailed in FMS’ Treasury Financial Manual and prepared a report
describing such procedures and the results of performing those procedures. These agreed-upon
procedures were performed in accordance with American Institute of Certified Public
Accountants’ Standards. At the close of the current semi-annual period, the OIG and its
contractor have substantially completed the required procedures and drafted the accompanying
report. Per OMB and FMS guidance, agreed-upon procedures reports were to be delivered to
the General Accounting Office, OMB, and FMS by March 3, 2000 or within one week of issuing
the audit report on the agency financial statements. To date, FCC has not finalized it FY 1999
financial statement due to the fact management is resolving issues precluding its general
release. The OIG intends to transmit the agreed-upon procedures report once FCC finalizes the
FY 1999 financial statement.

Government Performance Results Act Audit

OIG audit staff continue to monitor the FCC’s activity related to the Government Performance
and Results Act (GPRA) of 1993. During the reporting period, the OIG conducted initial
meetings and completed work relating to the preliminary planning stage of the audit. Recently,
the FCC published its first annual performance report as required by GPRA. The scope of our
audit is to assess FCC’s GPRA management and reporting systems as follows:

    •   update our understanding of and review FCC’s methodology for developing GPRA
        requirements;
    •   assess compliance with the Act;
    •   review annual performance plan(s) and report per guidance; and
    •   perform verification and validation of sampled performance measures and review status
        of prior audit recommendations (OIG 98-01; dated 3/3/99).

Contract Audits

OIG auditors continue to provide technical input and assistance to the Manager of the Contracts
and Purchasing Center in addressing a contract dispute between a prime contractor and the
FCC. In a prior reporting period, the OIG questioned approximately $236,000 of subcontract
labor costs billed to the FCC by the prime contractor. The prime contractor disputed the OIG
findings and submitted an approximate $288,000 counter claim for the same subcontract labor
costs. During this reporting period, the FCC’s Manager, Contracts and Purchasing Center,


Office of Inspector General                                                      Page 12
issued a final determination denying the prime contractor’s claimed costs.

Universal Licensing System (ULS) Survey

On March 17, 1999, the Chairman of the Federal Communications Commission submitted a
report titled “A New Federal Commissions Commission for the 21st Century.” In this paper, the
Chairman outlined his views on how the FCC should function. One of major goals stated in this
document is “streamlining and automating the FCC licensing process.” A cornerstone of this
goal is Universal Licensing System (ULS). The ULS is one of the FCC’s largest systems
development efforts ever undertaken. A Wireless Bureau project, ULS has several goals,
including: The development of an on-line and web based licensing system, the consolidation of
eleven Wireless legacy systems into one, the reduction of manual handling by automation of the
license processing function, and simplification of the licensing process.

OIG auditors have initiated a survey review of the ULS project. The purpose of this survey is to
examine the progress of the ULS project and report the results to the Inspector General. To
meet this goal, this survey has a series of milestones. The first milestone is to provide an
overview of the Universal Licensing System (ULS). The next goal is to analyze and report any
identified problems in the ULS development process. The final milestone is to determine if any
aspects of ULS need further OIG involvement and review. The survey report will recommend
what, if any, additional action the OIG should take on ULS. We anticipate completing this
review and issuing a report in the third quarter, FY 2000.

Disbursements and Accounts Payable Analysis

Disbursements traditionally represent a high risk factor to a business entity. To assist in
identifying and minimizing this risk, audit activity has been initiated using advanced software
tools to identify payments that meet identified exception criteria. After identification, audit work
will validate that disbursements are legitimate and accurate and supported by appropriate
documentation.

The initial objective will be to search for indicators of questionable or unusual disbursement
attributes using advanced audit software. This information resides in the Federal Financial
System (FFS) other accounts payable databases. Any disbursement meeting this definition will
be subject to detailed audit scrutiny.

The review will benefit the Commission by determining if the disbursement process is
functioning in a manner that minimizes the potential for waste, fraud, abuse, and
mismanagement. This system will also act as a check that can identify indicators of possible
abuse. We anticipate completing this review and issuing a report in the fourth quarter, FY 2000.




Semiannual Report to the Congress                                                    Page 13
Web Presence

The Internet and the World Wide Web (WWW) have become essential components in conducting
business with the FCC. Users can file licenses and applications electronically and access
Commission information via the Internet. A key Commission goal is the “paperless FCC,”
where filing would occur electronically using services such as the Internet. However, security
problems, such as the recent hacker attacks, constitute a significant risk to the fulfillment of
these goals. To ensure that the Commission’s “web presence” is secure, the OIG initiated an
audit of the FCC’s Web Presence. The objective of this review is to assess the security posture
of the FCC’s Web Presence and its associated components. The scope of this review
encompasses a review of the primary servers providing web resources, components that provide
and secure communication pathways to and from the Internet and between web resources, and
hosts providing back-end data sources to web resources. We anticipate completing the Web
Presence review in the fourth quarter, FY 2000.




Office of Inspector General                                                       Page 14
                                    Investigations

OVERVIEW
Investigative matters pursued by this office are generally initiated as a result of allegations
received through the OIG hotline or from FCC managers and employees who contact the OIG
directly. Investigations may also be predicated upon audit or inspection findings of fraud,
waste, abuse, corruption, or mismanagement by FCC employees, contractors, and/or
subcontractors. Upon receipt of an allegation of an administrative or criminal violation, the
OIG usually conducts a preliminary inquiry to determine if an investigation is warranted.
Investigations may involve possible violations of regulations regarding employee responsibilities
and conduct, federal criminal law, and other regulations and statutes pertaining to the activities
of the Commission. Investigative findings may lead to criminal or civil prosecution, or
administrative action.

The OIG also receives complaints from the general public, both private citizens and commercial
enterprises, about the manner in which the FCC executes its programs and oversight
responsibilities. All complaints are examined to determine whether there is any basis for OIG
audit or investigative action. If nothing within the jurisdiction of the OIG is alleged, the
complaint is usually referred to the appropriate FCC bureau or office for response directly to
the complainant. A copy of the response is also provided to the OIG. Finally, matters may be
referred to this office for investigative action from other governmental entities, such as the
Office of Special Counsel.

ACTIVITY DURING THIS PERIOD
During this reporting period, fourteen complaints were received in the OIG. All of the
complaints have resulted in the initiation of investigations or preliminary inquiries, and eight of
the matters were closed. Three complaints were closed because of determinations of no
violations of standards of conduct by FCC employees. Five complaints were closed because
they were found not to merit further action. Seven complaints are still pending.

The one case pending at the beginning of the period was closed. It was closed because the
allegations were found not to warrant further action by the OIG.




Semiannual Report to the Congress                                                    Page 15
STATISTICS


                 Cases pending as of September 30, 1999             1
                 New cases                                         14
                 Cases closed                                       8
                 Cases pending as of March 31, 2000                 7



SIGNIFICANT INVESTIGATIVE CASE SUMMARIES
• The OIG continues to monitor the matter concerning an employee at the FCC's Laurel
laboratory facility who was videotaped allegedly stealing government supplies from the facility
on multiple occasions. An investigative report was issued on April 9, 1998. The matter was also
referred to the Federal Protective Service for consideration of criminal charges. Federal law
enforcement authorities have declined to prosecute. Disciplinary action has been taken against
the employee. The employee has appealed the disciplinary action and the appeal is currently
pending.

• On May 2, 1999, the OIG received a complaint that an employee was spending a significant
amount of time during normal working hours accessing the E-bay auction program on his
Commission computer workstation. Based on the information received, an investigation was
initiated. As a result of the investigation, it was determined that during the period in question
the employee did in fact expend a significant amount of time during normal working hours
accessing the auction program on a Commission workstation. Disciplinary action was taken by
management and the matter has been closed.

• On September 27, 1999, the OIG commenced an investigation into allegations of employee
misconduct with respect to the presentation of a matter before the Administrative Law Judges of
the Commission. The OIG determined that the allegations related to the merits of the matter
pending before the Commission, and the issues which were the subject of the allegations were in
fact formally before the Commission for resolution. Accordingly, the OIG determined that the
matter did not warrant action by this office and the matter was closed.

• On November 3, 1999, the OIG initiated an investigation into allegations of misconduct and
abuse of authority by senior level employees at the Commission. The Office of the Special
Counsel had referred the matter to the OIG. The complaint alleged that the employees’ conduct
in allowing the temporary broadcasting of events at a racetrack and/or involvement with respect
to the issuance of an experimental license for the broadcasting at the track constituted
misconduct and an abuse of authority. It was alleged that the conduct violated, among other
things, the Communications Act and the Code of Federal Regulations pertaining to Commission


Office of Inspector General                                                        Page 16
regulations and standards of conduct for federal employees. The OIG was unable to find any
evidence of misconduct by the employees or that they had exceeded their authority in allowing
broadcasting at the track.

• On November 12, 1999, the OIG received a complaint concerning allegations of possible
improper conduct by a Commission employee with respect to the Commission’s awarding of a
contract for the purchase of specific absorption rate devices. It was alleged or inferred, among
other things, that an employee involved in the evaluation process may have improperly released
information regarding the bids. An investigation was initiated and is currently pending.

• On November 24, 1999, the OIG initiated a preliminary inquiry into allegations that a former
employee may have made or had an improper contact with the Commission in violation of 18
U.S.C. Section 207, which prohibits certain post-employment activities by former employees.
The alleged conduct consisted of the making of an affidavit by the former employee, which
appears to have been filed with the Commission concerning an issue upon which the former
employee had rendered a judgment. The OIG, through investigation, determined that the issue
in question was never under consideration by the employee. Accordingly, because of the
determination of no violation by the employee, the matter was closed.

• On November 26, 1999, the OIG initiated a preliminary inquiry into the circumstances of the
public release of an internal memorandum of the Commission. Through investigation it was
determined that the memorandum was released erroneously and that there was no evidence of
employee misconduct.

• On December 22, 1999, the OIG initiated an investigation based on allegations of a
supervisory FCC employee routinely utilizing his computer workstation to access pornographic
sites on the Internet in violation of FCC regulations and provisions of the Code of Federal
Regulations concerning use of Government equipment and use of official time. The investigation
is currently pending.

• On January 11, 2000, the Computer Security Officer of the Commission’s Information
Technology Center (ITC) notified the OIG that due to an apparent misuse of the Commission’s
electronic mail system by an employee, the Commission’s outbound electronic mail system shut
down on two recent occasions. An initial review of the employee’s electronic mail system by the
ITC revealed that the shut downs appear to have occurred as a result of the employee generating
electronic mail related to the conducting of a music business on Commission premises during
working hours. The OIG initiated an investigation, which is currently pending.

• On February 18, 2000, the OIG initiated a preliminary inquiry into allegations by a licensee
that a Commission field office employee had abused his official position and harassed the
licensee by, among other things, citing the licensee for non-existent telecommunications related
violations. The inquiry is currently pending.




Semiannual Report to the Congress                                                  Page 17
• On March 14, 2000, the OIG received a request that it look into the circumstances of the
issuance by a bureau of letters of revocation for certain licenses, to determine if there was any
wrongdoing by Commission employees. Specifically, the letters, which were dated December 22,
1999 and revoked licenses granted on November 23, 1999, allegedly were not mailed until
February 8, 2000. The OIG initiated a preliminary inquiry, which is currently pending.

HOTLINE CALLS
During this reporting period, the OIG Hotline Technician received one hundred and sixty-eight
(168) hotline calls to the published hotline numbers of (202) 418-0473 and 1-888-863-2244 (toll
free). One hundred and sixty-five (165) of the calls were referred either to the National
Consumer Center or to the appropriate federal agency. Three were determined not to warrant
investigation or referral by the OIG. The OIG Hotline continues to be a vehicle by which
Commission employees and parties external to the FCC can contact the OIG to speak with a
trained Hotline Technician. Callers who have general questions or concerns not specifically
related to the missions or functions of the OIG office are referred to the FCC National
Consumer Center at 1-888-225-5322. Examples of calls referred to the Consumer Center
include complaints pertaining to customers phone service and local cable providers, long-
distance carrier slamming, interference, or similar matters within the program responsibility of
other FCC bureaus and offices.




Office of Inspector General                                                       Page 18
                                       Legislation

OVERVIEW
Pursuant to section 4(a)(2) of the Inspector General Act of 1978(IG Act), as amended, our office
monitors and reviews existing and proposed legislative and regulatory items for their impact on
the Office of the Inspector General and the Federal Communications Commission programs and
operations. Specifically, we perform this activity to evaluate their potential for encouraging
economy and efficiency and preventing fraud, waste, and mismanagement.

ACTIVITY DURING THIS PERIOD
The Counsel to the IG continued to monitor legislative activities affecting the activities of the
OIG and the FCC.

During this period, this office monitored those legislative proposals, which directly or
indirectly impact on the ability of Designated Federal Entity IGs to function independently
and objectively. Those specific proposals concerned proposals to consolidate OIGs and to
directly and/or indirectly draw distinctions between presidentially – appointed IGs and
Designated Federal Entity IGs, which may have the effect of undermining the role of the
latter. Also during this period, in accordance with the Federal Activities Reform Act (FAIR
Act), the OIG presented its commercial inventory submission, which was approved by the
Office of Management and Budget and published in the Federal Register. The FAIR Act
directs federal agencies, commencing October, 1999, to submit each year an inventory of all
their activities that are performed by federal employees but are not inherently governmental
in nature.




Semiannual Report to the Congress                                                     Page 19
                    Technical Advice and Assistance
During the six-month reporting period covered by this report, OIG management and staff
have continued to dedicate resources towards assisting the Commission in those areas where
our expertise can provide benefit. For example, OIG personnel have participated in the
following projects:

Systems Development Life Cycle

Auditors from the OIG are working closely with Commission representatives to develop a
Systems Development Life Cycle (SDLC). The purpose of the SDLC project is to provide a
structured process for managing the development of information systems and for managing
system modification and operation after systems are deployed in the production environment.
During this reporting period, auditors co-hosted a series of sessions with representatives
from Commission Bureaus and Offices as well as representatives from the Commission’s
procurement office and Information Technology Center (ITC). The purpose of these sessions
was to finalize the structure of each of the six (6) phases of the SDLC and the SDLC
glossary. In addition, OIG auditors are working closely with ITC staff to determine the most
effective way to pilot test and implement the SDLC.

Because of our work in the development of the SDLC, the OIG was invited to participate in the
development of the new information system for the Commission’s Consumer Information Bureau
(CIB). CIB is piloting the Commission’s SDLC methodology that the OIG was instrumental in
developing. The OIG will participate in the project by assuming the SDLC’s auditor role. Audit
staff will also observe the process and issue a report on the results of the use of the SDLC on this
project.

Licensing Working Group

The OIG participated on the Licensing Work Group, which was established by the FCC to
develop options for streamlining and consolidating the Commission’s licensing processes. This
effort was performed in support of the Chairman’s Draft Strategic Plan, dated August 1999. The
work group collected and analyzed information on all phases of the Commission’s licensing and
authorization of service activities and identified three main options for streamlining these
functions. The options ranged from continuing with process improvements that were currently
underway within the Bureaus/Offices, through the use of automation to create a virtual
Licensing Bureau with a single point of entry and a consolidated database within the existing
Bureau/Office structure, to a complete reorganization of the functions and creation of a
Licensing Bureau. These options and the work group’s methodology were discussed in a report
prepared by the Licensing Work Group, “Improving the Commission’s Licensing and
Authorization of Service Functions – Options for Consideration”, dated March 24, 2000.


Office of Inspector General                                                          Page 20
Financial Management Advisory Services

The OIG provided advisory and assistance service to the Commission as it continues the
challenging task of realigning its financial management functions to implement CFO Act
financial reporting. Specifically, OIG staff attended working sessions, shared best practices from
other Federal agencies, and provided subject matter consulting on Federal financial
management initiatives. OIG staff provided extensive assistance to the CFO working group as
FCC prepared its firstr financial statement per OMB Bulletin No. 97-01, amended. Significant
assistance was also provided to resolve first year audit issues and expose CFO staff to the
requirements of an audit per OMB Bulletin No. 98-08, amended. The OIG and FCC
management are fostering a relationship that will facilitate CFO Act financial reporting at the
Commission.

    •   Provided technical advice to the Office of Financial Operations regarding the design of
        Form 159 – Remittance Advice. The verification of regulatory fee payments was being
        adversely affected by imprecise instructions to FCC filers. Four specific
        recommendations to correct the problem were provided to the CFO for his consideration.

Procurement Advisory Services

In the OIG’s efforts to provide comprehensive contract audit services to the FCC’s Contracts
and Purchasing Center, the OIG also advises the Commission’s contracting officers (COs) on
contract and contractor financial and performance matters that do not require contract audits.
OIG contract auditors performed the following contract advisory services during this reporting
period:

    •   Advised the CO on a government caused work disruption issue. The CO sought advice
        about whether a time and materials service contractor, who was not notified in advance,
        should be reimbursed or be required to take unreimbursed leave for time lost when the
        FCC moved the contractor to a new location within the FCC headquarters building.
        OIG advice resulted in the CO notifying the contracting officer’s technical representative
        (COTR), because the contractor did not receive adequate notification of the disruption,
        the contractor would have to be compensated.

    •   Advised a contracting officer’s technical representative (COTR) on a contractor time
        verification oversight issue. The COTR sought advice about verifying hours claimed by
        contractor employees performing services under his/her task order in order to improve
        the audit trail for approving monthly invoices for payment. OIG advice resulted in the
        COTR instituting new daily sign in/out procedures by requiring his/her contractor
        employees to e-mail the COTR when they arrive and depart each day.

    •   Accompanied and provided support to the Contracts and Purchasing Center Manager


Semiannual Report to the Congress                                                  Page 21
        and CO when they met with contractor representatives who were disputing prior contract
        constructive change order proposal audit findings. The contractor represented that they
        had new information that would prove the audit findings wrong and convince the CO to
        concur with the contractor’s position. The meeting concluded with the contractor not
        even trying to dispute the audit findings. Instead, the contractor representative took a
        different tact by proposing that certain of its employees should be moved into higher
        labor categories and be billed out at a higher labor rate under the contract. As a result,
        the OIG strongly recommended that the Contracts and Purchasing Center should initiate
        and require formal contract modification request procedures that require contractors to
        submit cost proposals and certify to the accuracy or their cost or pricing data. The
        Contracts and Purchasing Center Manager concurred with our recommendation.

    •   Met with and advised Contracts and Purchasing Center and Office of General Council
        (OGC) representatives about possible contract audit requirements for the North
        American Numbering Council (NANC) and Universal Service Administrative Company
        (USAC) support service contract proposals. Numerous issues were discussed, including
        Federal Acquisition Regulation (FAR) applicability and requirements and potential
        “federal fund” implications. As a result, the OIG will not be auditing the NANC
        proposal, because it changed from a negotiated sole-source to a competitive bid
        procurement once two or more qualified competitors were allowed to submit proposals.

    •   Provided advisory services to the FCC Automated Time Accountability System Task
        Force. The Contracts and Purchasing Center sponsored this task force in order to
        research and investigate different off-the-shelf automated time reporting systems to assist
        COTRs with verifying contract employee hours for services performed under cost
        reimbursable contracts at FCC facilities. OIG advisory services on this project continue
        as of this reporting period.




Office of Inspector General                                                         Page 22
 SPECIFIC REPORTING REQUIREMENTS OF SECTION 5(a) OF
             THE INSPECTOR GENERAL ACT

    The following summarizes the Office of Inspector General response to the twelve specific
    reporting requirements set forth in Section 5(a) of the Inspector General Act of 1978, as
    amended.

    1. A description of significant problems, abuses, and deficiencies relating to the
       administration of programs and operations of such establishment disclosed by such
       activities during the reporting period.

        No such problems, abuses, or deficiencies were disclosed during the reporting
        period.

    2. A description of the recommendations for corrective action made by the Office
       during the reporting period with respect to significant problems, abuses, or
       deficiencies identified pursuant to paragraph (1).

        No recommendations were made. See the response to paragraph (1).

    3. An identification of each significant recommendation described in previous semiannual
       reports on which corrective action has not been completed.

        No significant recommendations remain outstanding.

    4. A summary of matters referred to prosecutive authorities and the prosecutions and
       convictions which have resulted

        No matters were referred to prosecutive authorities during this reporting period.

    5. A summary of each report made to the head of the establishment under section
       (6)(b)(2) during the reporting period.

        No report was made to the Chairman of the FCC under section (6)(b)(2) during the
        reporting period.

    6. A listing, subdivided according to subject matter, of each audit report issued by the
       Office during the reporting period, and for each audit report, where applicable, the
       total dollar value of questioned costs (including a separate category for the dollar
       value of unsupported costs) and the dollar value of recommendations that funds be
       put to better use.


Semiannual Report to the Congress                                                   Page 23
        Each audit report issued during the reporting period is listed according to subject
        matter and described in part II, above.

    7. A summary of each particularly significant report.

        Each significant audit and investigative report issued during the reporting period is
        summarized within the body of this report.

    8. Statistical tables showing the total number of audit reports with questioned costs and
       the total dollar value of questioned costs.

        The required statistical table can be found at Attachment A to this report.

    9. Statistical tables showing the total number of audit reports with recommendations
       that funds be put to better use and the dollar value of such recommendations.

        The required statistical table can be found at Attachment B to this report.

    10. A summary of each audit report issued before the commencement of the reporting
        period for which no management decision has been made by the end of the reporting
        period (including the date and title of each such report), an explanation of the reasons
        such management decision has not been made, and a statement concerning the desired
        timetable for achieving a management decision on each such report.

        One audit report meets this criteria. The Report on Incurred Costs for Fiscal Years
        1995, 1996 and Short Year 1997 (OIG 97-18) was issued in September 1997. This
        incurred cost audit identified questioned costs of $265,180. The contractor has
        formally contested the OIG finding and submitted a counterclaim to the Chief,
        Contracts and Purchasing Center.

    11. A description and explanation of the reasons for any significant revised management
        decision made during the reporting period.

        No management decisions fall within this category.

    12. Information concerning any significant management decision with which the
        Inspector General is in disagreement.

        No management decisions fall within this category.




Office of Inspector General                                                           Page 24
                                                                                        Attachment A


Table I: OIG Audit Reports With Questioned Costs


                                                                             Dollar Value
     INSPECTOR GENERAL REPORTS WITH                        Number of
            QUESTIONED COSTS                                Reports    Questioned        Unsupported
                                                                         Costs              Costs

A.
       For which no management decision has been made
                                                               1            265,180               265,180
       by the commencement of the reporting period.



B.
       Which were issued during the reporting period.          0                    0                  0



       Subtotals (A + B)                                       1            265,180               265,180


C.     For which a management decision was made during
       the reporting period.


       (i)    Dollar value of disallowed costs.                0                    0                  0


       (ii)   Dollar value of costs allowed.                   0                    0                  0


D.     For which no management decision has been made
                                                               1            265,180               265,180
       by the end of the reporting period.



       Reports for which no management decision was made
                                                               1            265,180               265,180
       within six months of issuance.




Semiannual Report to the Congress                                                       Page 25
                                                                                       Attachment B


Table II: OIG Audit Reports With Recommendations that Funds Be Put To Better Use


        INSPECTOR GENERAL REPORTS WITH
                                                                        Number of
     RECOMMENDATIONS THAT FUNDS BE PUT TO                                           Dollar Value
                                                                         Reports
                  BETTER USE


A.     For which no management decision has been made by the
                                                                            0                      0
       commencement of the reporting period.



B.     Which were issued during the reporting period.                       0                      0



       Subtotals (A + B)                                                    0                      0


C.     For which a management decision was made during the
       reporting period.

       (i)    Dollar value of recommendations that were agreed to by
                                                                            0                      0
              management.


              - Based on proposed management action.                        0                      0



              - Based on proposed legislative action.                       0                      0

       (ii)   Dollar value of recommendations that were not agreed to
                                                                            0                      0
              by management.

D.     For which no management decision has been made by the end of
                                                                            0                      0
       the reporting period.

       For which no management decision was made within six months
                                                                            0                      0
       of issuance.




Office of Inspector General                                                           Page 26
